Office of Audits and Evaluations
Report No. EVAL-13-003


The FDIC’s Compliance with Energy
Management Requirements




                                   August 2013
                                         Executive Summary

                                         The FDIC’s Compliance with Energy
                                         Management Requirements
                                                                                     Report No. EVAL-13-003
                                                                                                 August 2013

Why We Did The Evaluation
We performed the evaluation in response to a request from the Bicameral Task Force on Climate Change,
dated February 25, 2013. The Task Force also sent letters to nearly 70 other Offices of Inspector General
(OIG) requesting that they perform similar assessments. Consistent with the Task Force request, our
evaluation objectives were to (1) identify the existing energy management requirements in legislation,
regulation, executive order, and other directives that apply to the FDIC; (2) assess whether the FDIC is
meeting those requirements; and (3) make recommendations that the FDIC improve its performance if the
FDIC is not fully meeting the requirements.

The Task Force request letter also asked the OIG to assess the authorities that the FDIC has to reduce
emissions of heat-trapping pollution, its authorities to make the nation more resilient to the effects of
climate change, and the most effective additional steps the FDIC could take in those areas. Our
March 28, 2013 response to the Task Force concluded that the FDIC does not have authorities in these
areas and that the FDIC’s focus should remain on maintaining public confidence in the nation’s financial
system and not be expanded to cover these additional areas.


Background
The federal government is the nation’s single largest energy consumer, and federal buildings accounted
for about 35 percent of the government’s total energy usage in fiscal year 2008. For decades, the federal
government has attempted to improve energy efficiency and water conservation at federal facilities.

Several laws and Executive Orders (EO) have been implemented over the years to reduce energy and
water consumption. The National Energy Conservation Policy Act (NECPA), codified at 42 U.S.C.
§ 8252 et. seq., serves as the underlying authority for federal energy management goals and requirements.
The Department of Energy’s (DOE) Federal Energy Management Program (FEMP) provides services,
tools, and expertise to federal agencies to help them achieve their legislated and executive-ordered
energy, greenhouse gas, and water reduction goals.

Within the FDIC, the Division of Administration (DOA) is responsible for the Corporation's energy
management and conservation efforts. The FDIC owns four buildings located in Virginia,
Washington, D.C., and California, which are divided into seven buildings for energy-tracking purposes.
The FDIC also leased 105 office spaces across the United States as of April 2013.


Evaluation Results
The FDIC is subject to energy efficiency measures and related reporting requirements in certain
legislation. Specifically, the FDIC’s Legal Division opined that NECPA is binding on the FDIC as are
certain parts of the Energy Independence and Security Act of 2007, the Energy Policy Act of 2005, and the
Energy Policy Act of 1992, 1 each of which amended NECPA. As an independent agency of the federal
government, the FDIC is not required to comply with EOs but has voluntarily complied with some of the
provisions of EOs pertaining to energy efficiency.


1
    Public Laws 110-140, 109-58, and 102-486, respectively.


                                     To view the full report, go to www.fdicig.gov
                                     The FDIC’s Compliance with Energy
  Executive Summary
                                     Management Requirements
                                                                                    Report No. EVAL-13-003
                                                                                                August 2013

The FDIC has undertaken a number of efforts to reduce its energy and water consumption and to recycle
waste materials. Notable efforts have included capital improvements at its owned buildings, such as
replacing heating, ventilation, and air conditioning systems and adding supplemental boilers and chillers
to provide heating and cooling more efficiently; installation of energy efficient lighting, room occupancy
sensors, and water efficient fixtures; recycling efforts; and the use of environmentally preferable products.
Other initiatives have also contributed to less energy usage, such as corporate support for telecommuting,
video conferencing, carpooling, flexible work schedules, and electronic sharing of information.

Notwithstanding those efforts, we concluded that the FDIC could do more to comply with energy
reduction, water management, and reporting requirements contained in legislation. Specifically, we
concluded that the FDIC should:

    •   Take steps aimed at meeting legislative energy reduction goals;
    •   Establish a training program for energy managers;
    •   Perform comprehensive periodic evaluations of covered facilities;
    •   Implement and monitor energy conservation measures that are life cycle cost-effective;
    •   Report information to DOE about covered facilities;
    •   Report annually to DOE on the Corporation’s activities for meeting federal energy management
        requirements;
    •   Establish a process for reviewing large capital energy investment decisions; and
    •   Research additional opportunities with energy service companies, state agencies, and other third
        parties to identify and participate in programs that achieve energy and water savings.

During the period of our evaluation, the FDIC took steps to address several of these areas.

Further, while the FDIC addressed several components of a 2008 OIG report recommendation to establish
a formal sustainability program, the FDIC would benefit from fully implementing the spirit of this
recommendation by developing and documenting energy management policies and procedures, related
goals, and initiatives for meeting FEMP requirements. Formalizing a sustainability program would
encompass many of the areas discussed in our report.

This report contains eight recommendations to strengthen the FDIC’s energy efficiency measures and
programs and its compliance with applicable legislation and reporting requirements.


Corporation Comments
On August 9, 2013, the Director, DOA provided a written response to a draft of this report. DOA’s
response stated that the FDIC has undertaken a number of initiatives to reduce energy and water
consumption but recognized that the FDIC can do more to comply with energy and water management
reporting requirements. In its response, DOA concurred with all eight of the report’s recommendations
and described its planned corrective actions to be completed by December 31, 2014. The planned actions
are responsive to the recommendations.




                                  To view the full report, go to www.fdicig.gov
                        Table of Contents

Objectives                                                     1

Background                                                     2

Evaluation Results                                             3

Applicable Legislative Requirements and Executive Orders       4

The FDIC’s Energy Management and Sustainability Efforts        5

The FDIC’s Compliance with Legislative Requirements            6

The FDIC’s Compliance with Executive Orders                    19

The FDIC’s Establishment of a Formal Sustainability Program    23

Corporation Comments and OIG Evaluation                        24

Appendices
  1. Objectives, Scope, and Methodology                        25
  2. EISA Requirements that are Applicable to the FDIC         27
  3. Request from the Bicameral Task Force on Climate Change   29
  4. The OIG’s Initial Response to the Task Force Request      31
  5. Glossary of Terms                                         34
  6. Abbreviations and Acronyms                                39
  7. Corporation Comments                                      40
  8. Summary of the Corporation’s Corrective Actions           45


Tables
   1. Total Energy Use at FDIC-Owned Buildings:                7
      Fiscal Years 2003 – 2012
   2. ENERGY STAR Ratings for FDIC-Owned Buildings as of       9
      September 30, 2012
   3. FDIC Energy Use in Fiscal Year 2012                      10
   4. Energy Evaluations of FDIC Covered Facilities            12
Federal Deposit Insurance Corporation                                                Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General


DATE:                                     August 19, 2013

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  The FDIC’s Compliance with Energy Management Requirements
                                          (Report No. EVAL-13-003)


This report presents the results of our evaluation of the FDIC’s compliance with applicable
legislation and Executive Orders (EO) related to energy reduction and efficiency efforts. We
performed this evaluation in response to a request from the Bicameral Task Force on Climate
Change, dated February 25, 2013. The Task Force also sent letters to nearly 70 other Offices of
Inspector General (OIG) requesting that they perform similar assessments.

Objectives
Consistent with the Task Force request letter, our evaluation objectives were to (1) identify the
existing energy management requirements in legislation, regulation, executive order, and other
directives that apply to the FDIC; (2) assess whether the FDIC is meeting those requirements;
and (3) make recommendations that the FDIC improve its performance if the FDIC is not fully
meeting the requirements.

The Task Force request letter also asked the OIG to assess the authorities that the FDIC has to
reduce emissions of heat-trapping pollution, its authorities to make the nation more resilient to
the effects of climate change, and the most effective additional steps the FDIC could take in
those areas. Our initial response to the Bicameral Task Force on Climate Change, dated
March 28, 2013, assessed these items and concluded that the FDIC does not have authorities in
these areas and it is our view that the FDIC’s focus should remain on maintaining public
confidence in the nation’s financial system and not be expanded to cover these additional areas.
Our complete response to these items is provided in Appendix 4 of this report.

We performed our evaluation from March 2013 through June 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection
and Evaluation. Appendix 1 of this report includes additional details regarding our objectives,
scope, and methodology. Additional appendices include specific legislative requirements that
are binding on the FDIC, the request letter from the Bicameral Task Force on Climate Change,




                                                            1
our initial response to the Task Force letter, a glossary of terms, 1 acronyms used in the report, the
FDIC’s response to the report’s recommendations, and a summary of the Corporation’s
corrective actions.


Background
The federal government is the nation’s single largest energy consumer, and federal buildings
accounted for about 35 percent of the government’s total energy usage in fiscal year (FY) 2008.
For decades, the federal government has attempted to improve energy efficiency and water
conservation at federal facilities.

Several laws and EOs have been implemented over the years to reduce energy and water
consumption. The National Energy Conservation Policy Act (NECPA), codified at 42 United
States Code (U.S.C.) § 8252 et. seq., serves as the underlying authority for federal energy
management goals and requirements. Signed into law in 1978, NECPA is periodically updated
and amended. The United States Department of Energy’s (DOE) Federal Energy Management
Program (FEMP) provides services, tools, and expertise to federal agencies to help them achieve
their legislated and executive-ordered energy, greenhouse gas (GHG), and water reduction goals.
FEMP facilitates the federal government’s implementation of sound, cost-effective energy
management practices to enhance the nation’s energy security and environmental stewardship.

Within the FDIC, the Division of Administration (DOA) is responsible for the Corporation’s
energy management and conservation efforts. In particular, the Facilities Operation Section
within the Corporate Services Branch (CSB) is responsible for developing and implementing the
Corporation’s Energy Plan, coordinating construction and renovation activities, procuring and
monitoring utility services, identifying and implementing energy and water conservation
measures, and managing the FDIC’s consolidated building engineering service contract.

The FDIC owns four buildings located in Virginia, Washington D.C., and California, which are
divided into seven buildings for energy-tracking purposes.
    • Virginia Square Facility located at 3501 North Fairfax Drive, Arlington, Virginia 22226
       (Virginia Square Buildings). This facility is divided as follows for energy-tracking
       purposes:
           o Buildings A and B
           o Building C
           o Buildings D and E
           o Student Residence Center
    • 550 17th Street, NW, Washington, DC 20429 (550 Building)
    • 1776 F Street, NW, Washington, DC 20429 (1776 Building)
    • San Francisco Regional Office located at 25 Jessie Street, San Francisco, California
       94105 (SFRO)

The FDIC also leased 105 office spaces across the United States as of April 2013.

1
    Underlined terms are defined in Appendix 5, Glossary of Terms.



                                                          2
Evaluation Results
The FDIC is subject to energy efficiency measures and related reporting requirements in certain
legislation. Specifically, the FDIC’s Legal Division opined that NECPA is binding on the FDIC
as are certain parts of the Energy Independence and Security Act of 2007 (EISA), the Energy
Policy Act of 2005, and the Energy Policy Act of 1992, 2 each of which amended NECPA. 3 As an
independent agency of the federal government, the FDIC is not required to comply with EOs but
has voluntarily complied with some of the provisions of EOs pertaining to energy efficiency. 4

The FDIC has undertaken a number of efforts to reduce its energy and water consumption and to
recycle waste materials. Notable efforts have included capital improvements at its owned
buildings such as replacing heating, ventilation, and air conditioning (HVAC) systems; adding
supplemental boilers and chillers to provide heating and cooling more efficiently; installing
energy-efficient lighting, room occupancy sensors, and water-efficient fixtures; recycling efforts;
and using environmentally preferable products. Other initiatives have also contributed to less
energy usage, such as corporate support for telecommuting, video conferencing, carpooling,
flexible work schedules, and electronic sharing of information.

Notwithstanding those efforts, we concluded that the FDIC could do more to comply with energy
reduction, water management, and reporting requirements contained in legislation. Specifically,
we concluded that the FDIC needs to:

    •   Take steps aimed at meeting legislative energy reduction goals;
    •   Establish a training program for energy managers;
    •   Perform comprehensive periodic evaluations of covered facilities;
    •   Implement and monitor energy and water conservation measures (ECM) that are life
        cycle cost-effective;
    •   Report information to DOE about covered facilities;
    •   Report annually to DOE on the Corporation’s activities for meeting federal energy
        management requirements;
    •   Establish a process for reviewing large capital energy investment decisions; and
    •   Research additional opportunities with energy service companies (ESCO), state agencies,
        and other third parties to identify and participate in programs that achieve energy and
        water savings.

During the period of our evaluation, the FDIC took steps to address several of these areas.

Further, while the FDIC addressed several components of a 2008 OIG report recommendation to
establish a formal sustainability program, 5 the FDIC would benefit from fully implementing the

2
  Public Laws (Pub. L.) 110-140, 109-58, and 102-486, respectively.
3
  EISA also amended the Energy Conservation and Production Act (ECPA), Pub. L. 94-385, as amended, which the
FDIC is not required to follow. Accordingly, the FDIC is not required to follow those EISA provisions that
amended ECPA.
4
  Some provisions in EOs were ultimately included in EISA and became binding on the FDIC.
5
  Energy Efficiency of the FDIC’s Virginia Square Facility and Information Technology Data Center, dated
September 2008 (EVAL-08-005). See report at: http://www.fdicig.gov/reports08/08-005EV.pdf



                                                     3
spirit of this recommendation by developing and documenting energy management policies and
procedures, related goals, and initiatives for meeting FEMP requirements. Formalizing a
sustainability program would encompass many of the areas discussed in our report.

This report contains eight recommendations to strengthen the FDIC’s energy efficiency measures
and programs and its compliance with applicable legislation and reporting requirements.


Applicable Legislative Requirements and Executive Orders
This section identifies the existing requirements in legislation, regulation, EO, and other
directives that apply to the FDIC.

Legislative Requirements

The FDIC’s Legal Division opined that the FDIC is subject to the:

   •   Fully-amended National Energy Conservation Policy Act (NECPA),
   •   Energy Independence and Security Act of 2007 (EISA),
   •   Energy Policy Act of 2005, and
   •   Energy Policy Act of 1992.

NECPA serves as the underlying authority for federal energy management goals and
requirements. Signed into law in 1978, it has been periodically updated and amended by
subsequent laws.

The February 25, 2013 letter from the Bicameral Task Force referenced EISA. EISA amended
NECPA and contains 16 titles, two of which have sections that are applicable to the FDIC:
Title IV – Energy Savings in Buildings and Industry and Title V – Energy Savings in
Government and Public Institutions. Generally, these titles require the FDIC to (1) meet
specified energy consumption reduction goals, (2) appoint energy managers, (3) perform energy
and water evaluations, (4) report energy use information and reduction efforts to DOE,
(5) develop a process for reviewing large capital energy investment decisions, and (6) ensure the
purchase of certain energy-efficient products, when practicable. Following EISA’s enactment,
the FDIC’s Legal Division completed an analysis of EISA for DOA, which identified the EISA
sections that are applicable to the FDIC. Appendix 2 of the report identifies the specific EISA
requirements that the FDIC is subject to and provides a brief description of those requirements.

While some of the provisions in the Energy Policy Act of 2005 and the Energy Policy Act of
1992 apply to the FDIC, many of the provisions of these two older laws have subsequently been
amended, particularly by EISA.




                                                 4
The FDIC is not subject to EISA provisions requiring that reports be submitted to the Office of
Management and Budget (OMB) on energy reduction efforts, nor has the FDIC transmitted any
such reports to the OMB. 6

Executive Orders

The FDIC’s Legal Division has long maintained that the Corporation is not subject to provisions
contained in EOs unless expressly authorized by law. Nevertheless, the FDIC has implemented
several measures that comply with provisions in EOs, as outlined in our report. Some provisions
in these EOs were also included in EISA and became binding on the FDIC when EISA was
enacted in December 2007.

    •    Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic
         Performance, October 5, 2009.

    •    Executive Order 13423, Strengthening Federal Environmental, Energy, and
         Transportation Management, January 24, 2007.

    •    Executive Order 13221, Energy Efficient Standby Power Devices, July 31, 2001.


The FDIC’s Energy Management and Sustainability Efforts
DOA indicated that, since 2006, CSB has incorporated energy management and sustainability
principles into most aspects of the operation, maintenance, and upgrading of the FDIC’s owned
facilities. DOA noted that many of the energy management and sustainability principles adopted
and employed by CSB have been developed by the United States Green Building Council’s
Leadership in Energy and Environmental Design (LEED) programs or are required by legislation
or EO.

DOA indicated that CSB utilizes industry experts to conduct periodic building and condition
surveys and energy studies of FDIC-owned facilities. CSB evaluates ECMs recommended from
those studies in terms of feasibility, cost savings, and impact on attaining LEED certification
and/or compliance with legislation or EOs. ECMs are ranked based on these criteria and are
included in CSB’s Capital Improvement Plan.

The FDIC’s Virginia Square Buildings A and B achieved an ENERGY STAR label in June 2013
and LEED silver level certification in 2011. In 2012, the FDIC also entered into a services
contract for its disaster recovery site, which was LEED gold level certified. 7 A brief description
of selected FDIC energy efficiency and sustainability efforts follows.



6
  As an independent agency, the FDIC conducts its operations with minimal OMB oversight. The Federal Deposit
Insurance Act (FDI Act) expressly prohibits OMB from exercising jurisdiction or oversight over the affairs or
operations of the Corporation, as noted in section 17(c)(3) of the FDI Act, codified at 12 U.S.C. section 1827(c)(3).
7
  The FDIC does not own this building.



                                                          5
    •   At the time of our evaluation, the FDIC was implementing an HVAC retrofit project at
        the 550 Building to maximize the building’s energy efficiency, increase occupant
        comfort, and attain LEED certification. CSB estimated a 23-percent reduction in the
        building’s energy consumption after the HVAC system is replaced and new energy-
        efficient windows and programmable/adjustable lighting systems are installed. The 550
        Building HVAC retrofit project was also being designed to achieve a LEED certification
        upon the project’s completion, which was estimated to be at the end of 2015.

    •   In 2012, the FDIC installed a 60-ton “supplemental” chiller in the 1776 Building to
        supplement the main chiller. The supplemental chiller cools the building’s main lobby
        and 1C level and operates on weeknights and weekends to avoid having the building’s
        main chiller operate. CSB stated that this project resulted in a 9-percent reduction in
        energy use.

    •   In 2011, the FDIC installed a “Summer Boiler” to serve the Virginia Square D and E
        Buildings. This small, 125 horsepower boiler operates during the summer months,
        instead of using one of the building’s three 400 horsepower boilers, when less heating is
        required. CSB estimated annual energy savings associated with use of the “Summer
        Boiler” to be approximately 2,430,000 kilowatt hours per year (KWH/yr).

    •   In 2011, the FDIC installed energy-efficient lighting fixtures and a
        programmable/adjustable lighting control system in the Virginia Square A and B
        Buildings. CSB estimated a corresponding energy reduction of 56 percent pertaining to
        lighting.

    •   In 2010, the FDIC replaced and oriented the HVAC controls and temperature sensors in
        the Virginia Square A, B, and C Buildings to an automated control system, enabling more
        effective monitoring and control. CSB estimated that these HVAC system upgrades, in
        combination with the implementation of night and weekend temperature adjustments,
        reduced energy by approximately 1,508,500 KWH/yr.


The FDIC’s Compliance with Legislative Requirements
While the FDIC has pursued a number of energy management and sustainability efforts, the
Corporation could do more to comply with legislative energy management requirements for
federal agencies. The following sections describe key requirements and the FDIC’s compliance
with those requirements.


Meet Energy Performance Requirements for Federal Buildings

Section 8253 of NECPA requires agencies to apply ECMs to their federal buildings so that the
energy consumption per gross square foot of those buildings is reduced. 8 Section 431 of EISA
8
 Section 8253 of NECPA also requires agencies to improve the construction design of federal buildings to reduce
energy consumption.



                                                        6
(42 U.S.C. § 8253(a)(1)) amended NECPA and set forth specific energy reduction goals for FYs
2006 through 2015. EISA requires agencies to reduce energy consumption, per gross square
foot, of their federal buildings by 30 percent in FY 2015, compared to FY 2003 energy
consumption levels, as shown in Table 1.

FDIC Compliance. The FDIC has not reduced its energy consumption in line with this
legislative goal, as illustrated in Table 1 or formally established energy reduction goals.
Compared to FY 2003, the FDIC’s energy use increased each year from FYs 2004 through 2012,
with the exception of FYs 2005 and 2011.

Table 1: Total Energy Use at FDIC-Owned Buildings: Fiscal Years 2003 – 2012
                             Energy Use Per         Change in Energy Use
                                          a
                             Square Foot              Per Square Foot               Legislative Energy
                                        b
     FY Ended 09/30            (KBTUs)              Compared to FY 2003              Reduction Goal
          2003                   126.18                      -----                          -----
          2004                   135.09                     7.06%                           -----
          2005                   122.27                    -3.10%                           -----
          2006                   126.63                     0.36%                         -2.00%
          2007                   131.42                     4.15%                         -4.00%
          2008                   137.73                     9.16%                         -9.00%
          2009                   139.87                    10.85%                        -12.00%
          2010                   130.69                     3.57%                        -15.00%
          2011                   123.51                    -2.12%                        -18.00%
          2012                   130.98                     3.80%                        -21.00%
          2015                    -----                      -----                       -30.00%
Source: OIG analysis of FDIC energy use information that DOA entered into ENERGY STAR Portfolio Manager.
a
  The FDIC’s covered facilities comprised 1,162,503 square feet of space from FYs 2003 – 2005 and 1,590,360
  square feet of space from FYs 2006 – 2012. The additional square footage resulted from the construction of
  the Virginia Square C, D, and E Buildings in 2005. These buildings were occupied in 2006 and this is when
  the FDIC began tracking utility payments for these buildings.
b
  KBTUs refers to Kilo British Thermal Units.

DOA officials indicated that significant increases in staffing and contractor resources in response
to the recent financial crisis impacted the FDIC’s ability to meet EISA’s energy reduction goals.
FDIC staffing increased by 78 percent (from 4,693 to 8,337 employees) from 2007 through
2010. 9 This resulted in a significant increase in energy usage, particularly from an increase in
computer equipment, according to DOA. DOA also noted that the number of on-site contractors
has increased significantly and these contractors often share office space, which increases energy
costs without a corresponding increase in office space.

As a result, DOA management stated that, in addition to tracking compliance with the legislative
energy reduction goal, it also plans to track energy consumption by individual full-time
employees and contractors and seek out ways to reduce energy consumption per employee. As
of July 2013, DOA had not established a timeframe or methodology for implementing this
analysis.




9
    Includes permanent, term, and temporary employees at all of the FDIC’s owned and leased spaces.



                                                          7
Recommendation

We recommend that the Director, DOA:

   1. Establish energy reduction goals and a formal approach to reduce energy use, compared
      to energy use in FY 2003.


Install Advance Metering Devices and Benchmark Federal Buildings

Section 8253(e) of NECPA requires all federal buildings to be metered for tracking electricity
use by October 1, 2012. Further, to the maximum extent practicable, agencies should use
advanced meters that provide data at least daily and that measure electricity consumption at least
hourly in the federal buildings of the agency. Section 434 of EISA amended NECPA, requiring
that each agency provide for equivalent metering of natural gas and steam by October 1, 2016.

Section 432 of EISA (42 U.S.C. § 8253(f)) also requires agencies to enter energy use data for
each metered building into a benchmarking system such as the ENERGY STAR Portfolio
Manager. This system, designed by the Environmental Protection Agency (EPA), allows
agencies to report energy consumption of each building and has the ability to produce energy use
reports that summarize energy information and building characteristics such as site and source
energy intensity, carbon dioxide emissions, gross floor area, and the number of personal
computers.

ENERGY STAR Portfolio Manager also allows users to rate building energy performance on a
scale of 1-100 relative to similar buildings nationwide. A rating of 50 indicates that the building,
from an energy consumption standpoint, performs better than 50 percent of all similar buildings
nationwide. Buildings rated 75 or greater may qualify for an ENERGY STAR label, which
recognizes superior energy performance in a single building. Buildings may also qualify for
LEED ratings if they have a minimum ENERGY STAR score of 69.

FDIC Compliance. All of the FDIC’s owned buildings are metered for electricity, as required,
and some buildings are also sub-metered. The four Virginia Square Buildings and the 550
Building contain advanced meters. The FDIC was installing advanced meters in the SFRO in
May 2013, and plans to install advanced meters in the 1776 Building by the end of 2013. DOA
is aware of the requirement to meter for natural gas and steam by October 1, 2016 and plans to
comply with this requirement.

DOA staff estimated that they have been regularly reporting energy use information in ENERGY
STAR Portfolio Manager since around 2006 or 2007, and we found that energy use information
was tracked in the system going back to 2003. However, the FDIC did not make information in
ENERGY STAR Portfolio Manager available to DOE until April 2013.

We confirmed that ENERGY STAR information was publicly available for FDIC buildings on
DOE’s Web site. Table 2 presents ENERGY STAR rating information for the FDIC’s owned
buildings as of September 30, 2012. The FDIC’s Virginia Square Buildings A and B achieved
an ENERGY STAR label in June 2013 and LEED silver level certification in 2011, as noted


                                                 8
earlier. However, the FDIC’s other buildings were rated between 19 and 64, making them
ineligible for an ENERGY STAR label.

Table 2: ENERGY STAR Ratings for FDIC-Owned Buildings as of September 30, 2012
 Building                                            ENERGY STAR Rating
 Virginia Square: A and B Buildings                                                     81
 Virginia Square: D and E Buildings                                                     60
 Virginia Square: Student Residence Center                                              19
 550 Building                                                                           44
 1776 Building                                                                          52
 SFRO                                                                                   64
Source: DOE’s Compliance Tracking System (CTS).
Note: The configuration of the Virginia Square C Building makes it unable to be ENERGY STAR rated.



Designate Covered Facilities

DOE guidance implementing NECPA and EISA states that each Department and independent
agency must designate “covered facilities” that comprise at least 75 percent of its facility energy
use. The term “facility” includes a group of facilities at a single location or multiple locations
managed as an integrated operation and contractor-operated facilities owned by the federal
government. The statute excludes from this definition any land or site for which the cost of
utilities is not directly paid by the federal government.

To identify covered facilities, agencies should first aggregate total energy use across all owned
buildings and leased spaces where the agency directly pays the cost of utilities. DOE
recommends that agencies rank those facilities with the greatest energy use in descending order
until the target of 75 percent of the total energy use is reached. DOE encourages each agency to
include as many facilities as it can manage in its covered facility inventory since 75 percent of
total energy use is the minimum requirement. In future years, if covered facilities leave the
agency’s inventory and/or covered facility energy use drops below the 75 percent threshold, the
agency must add new facilities to meet the requirement.

FDIC Compliance. The FDIC designated its four owned buildings (which are divided into
seven buildings for energy-tracking purposes) as covered facilities but did not notify DOE of
these designations until April 2013. These buildings constituted 95 percent of the agency’s total
energy use in FY 2012, as shown in Table 3. As such, the FDIC is meeting the requirement to
designate covered facilities as those that consume at least 75 percent of total energy use. The
FDIC also leases 11 spaces across the United States where it directly pays the cost of utilities.
The FDIC is not required to, nor has it designated these leased spaces as covered facilities.
Agencies were required to submit their lists of covered facilities and information about those
facilities to DOE by January 5, 2009.




                                                       9
Table 3: FDIC Energy Use in Fiscal Year 2012
                                                                                  Percent    Cumulative
                                                                   Energy         of Total   Total
                                                     Square        Use            Energy     Energy          Covered
 Building                                            Footage       (KBTUs)        Use        Use             Facility?
 Virginia Square: Buildings A and B                     384,925      68,801,640     31.51%        31.51%       Yes
 Virginia Square: Building C                             52,859      13,791,732      6.32%        37.82%       Yes
 Virginia Square: Buildings D and E                     374,998      38,669,670     17.71%        55.53%       Yes
 Virginia Square: Student Residence Center              274,003      32,100,070     14.70%        70.23%       Yes
 550 Building                                           211,145      28,347,941     12.98%        83.21%       Yes
 1776 Building                                          165,215      14,554,280      6.66%        89.88%       Yes
 SFRO                                                   127,215      12,041,441      5.51%        95.39%       Yes
 11 Leased Spaces*                                      333,028      10,062,954      4.61%      100.00%         No
 Total                                               1,923,388     218,369,728    100.00%            -----     -----
Source: OIG analysis of information obtained from DOA.
* Leased spaces for which the FDIC directly pays utilities.



Designate and Train Energy Managers

Section 432 of EISA requires each agency to designate an energy manager at each covered
facility, who is responsible for implementing efforts to reduce agencywide energy use and ensure
agency compliance with related legislation.

Section 8262c(a)(1) of NECPA requires agencies to establish and maintain a program to ensure
that facility energy managers are trained energy managers. DOE guidance 10 states that energy
managers must meet the definition of “trained energy managers” from section 151, subtitle F of
the Energy Policy Act of 1992, which states that:

         [a] ‘trained energy manager’ means a person who has demonstrated
         proficiency, or has completed a course of study in the areas of
         fundamentals of building energy systems, building energy codes and
         applicable professional standards, energy accounting and analysis, life
         cycle cost methodology, fuel supply and pricing, and instrumentation for
         energy surveys and audits. 11

DOE’s written guidance recommends that agencies interpret a “course of study” to mean the
completion of 32 course hours and states that agencies may establish their own minimum
requirements for facility energy managers based on the statutory definition.




10
   DOE guidance entitled: Facility Energy Management Guidelines and Criteria for Energy and Water Evaluations
in Covered Facilities (42 U.S.C. 8253 Subsection (f), Use of Energy and Water Efficiency Measures in Federal
Buildings) November 25, 2008, page 2.
11
   42 U.S.C. 8262(3).



                                                              10
FDIC Compliance. As required, the FDIC designated an energy manager who tracks energy
usage and coordinates energy reduction measures for its covered facilities. 12 This energy
manager is a certified energy procurement professional and master electrician. The SFRO also
employs an individual who tracks energy usage and assumes many of the responsibilities of an
energy manager for the SFRO and has prior experience as a building manager. These individuals
have participated in training events pertaining to ENERGY STAR Portfolio Manager and energy
management and reporting requirements. Thus, the experience and training courses completed
by these individuals appeared sufficient for their roles. However, DOA has not established a
formal training program or minimum training requirements for its energy managers. Doing so
would help to ensure the energy managers remain proficient in energy management topics and
are cognizant of the various energy reduction and reporting requirements.

Recommendation

We recommend that the Director, DOA:

     2. Establish a formal training program for energy managers to better ensure FDIC
        compliance with energy reduction and reporting requirements. The training program
        should include a minimum of 32 course hours pertaining to energy management.


Perform Comprehensive Evaluations of Covered Facilities

Beginning on June 16, 2008 (180 days after the enactment of EISA), and annually thereafter,
section 432 of EISA requires agencies to complete a comprehensive energy and water evaluation
for approximately 25 percent of their covered facilities so that an evaluation of each covered
facility is completed at least once every 4 years. 13

DOE issued guidance on the components that comprise a comprehensive energy and water
evaluation. 14 These evaluations should include a commissioning component and an audit
component.

     •   Section 432 of EISA requires agencies to assess commissioning, recommissioning, and
         retrocommissioning measures for each covered facility. These measures consist of
         examining facility systems to determine if they are performing in accordance with their
         design documentation and intent. The primary goal of commissioning is to ensure fully
         functional systems that can be properly operated and maintained during the useful life of
         the facility. Commissioning pertains to assessing new systems, recommissioning pertains

12
   DOE guidance states that each agency may determine for itself any limits on how many facilities an energy
manager may be responsible for based on its organizational structure and the nature of its buildings. The key criteria
for limiting the number of facilities for which an energy manager is responsible is the capability of the energy
manager to procure or otherwise complete comprehensive energy and water evaluations of covered facilities every
4 years.
13
   Covered facilities that underwent energy and water evaluations in calendar years 2006 and 2007 could be included
as part of the 25-percent requirement for the first year, due June 16, 2009.
14
   Guidance for the Implementation and Follow-up of Identified Energy and Water Efficiency Measures in Covered
Facilities, September 2012.



                                                         11
         to re-assessing systems that have already been commissioned, and retrocommissioning
         pertains to assessing older systems that have not been commissioned or recommissioned.

     •   The audit component of comprehensive evaluations identifies potential ECMs, including
         annual water and energy savings information, life cycle investment and implementation
         costs, and cost savings. Depending on the physical and energy-use characteristics of a
         building and the needs and resources of the owner, these audits can require different
         levels of effort. DOE provides guidance for the scope and reporting format of energy
         audits.

FDIC Compliance. The FDIC completed evaluations for some, but not all of its covered
facilities within the 4-year period beginning June 16, 2008. The FDIC had not completed
required evaluations for the 550 and 1776 Buildings, as shown in Table 4.

Table 4: Energy Evaluations of FDIC Covered Facilities
                                                Most Recent               Next Energy
 Covered Facility                               Energy Evaluation         Evaluation Due
 Virginia Square Buildings*                     11/6/2009                 2013
 550 Building                                   10/24/2005                Overdue
 1776 Building                                  10/24/2005                Overdue
 SFRO                                           12/9/2011                 2015
Source: OIG analysis of energy evaluations from DOA.
* All of the Virginia Square Buildings were assessed as part of the November 6, 2009 evaluation.

For the Virginia Square Buildings and SFRO, we found that energy and water evaluations were
conducted for both facilities, and both evaluations included recommissioning measures, an audit
component, and ECMs with energy cost savings estimates. However, the SFRO evaluation did
not include an assessment of commissioning, recommissioning, or retrocommissioning efforts as
a part of its December 2011 evaluation, as required by section 432 of EISA.

DOA staff agreed that the 1776 Building was in need of an energy and water evaluation. 15
During our evaluation, the 550 Building was undergoing a comprehensive HVAC retrofit and
plans were underway to install new energy-efficient windows, lighting, and plumbing fixtures.
DOA expects that after the renovations, the ENERGY STAR rating of the 550 Building will be
high enough to make it eligible for the FDIC to apply for LEED certification.




15
  In December 2011, a contractor completed an evaluation of the HVAC system in the 1776 Building and
recommended that the FDIC install a supplemental chiller to cool the building’s main lobby and 1C level. As noted
previously, in December 2012, the FDIC installed a supplemental chiller as recommended. The contractor provided
the FDIC with a written report, which contained estimated cost savings and paybacks associated with installing the
supplemental chiller, as well as several other ECMs that could be implemented in the building to reduce overall
energy consumption. While this evaluation did not contain a water evaluation component as required by section 432
of EISA, the evaluation assisted the FDIC in implementing energy reduction measures.



                                                        12
Recommendation

We recommend that the Director, DOA:

   3. Implement controls to ensure that all of the FDIC’s covered facilities undergo
      comprehensive energy and water evaluations every 4 years, as specified by section 432 of
      EISA, and that those evaluations include commissioning and audit components.


Implement and Monitor Energy Conservation Measures

Section 8253(f)(4) of NECPA provides that an agencies may implement any energy- or water-
efficiency measure (also referred to as an ECM) that the federal agency identified in
comprehensive evaluations conducted that is life cycle cost-effective and bundle individual
measures of varying payback periods together into combined projects.

In deciding whether to implement ECMs, agencies should perform life cycle cost and other
analyses to assess the benefits of implementing ECMs. Section 8254 of NECPA required DOE,
in consultation with other agencies to establish practical and effective present value methods for
estimating and comparing life cycle costs for federal buildings. Life cycle cost analysis is an
economic evaluation of a project in which all costs arising from acquiring, constructing, owning,
operating, maintaining, and disposing of a project are key decision criteria. Life cycle cost
analysis represents the sum of present values of investment, capital, installation, energy,
operating, maintenance, and disposal costs over the lifetime of the project, product, or ECM.
NECPA requires agencies to use life cycle cost methods and procedures in the design of new
federal buildings and the application of ECMs to existing buildings.

Section 8253(f)(5) of NECPA requires agencies to follow up on each implemented ECM and
requires energy managers to ensure that:

   •   Equipment, including building and equipment controls, is fully commissioned at
       acceptance to be operating at design specifications;

   •   A plan for appropriate operations, maintenance, and repair of the equipment is in place at
       acceptance and is followed;

   •   Equipment and system performance is measured during its entire life to ensure proper
       operations, maintenance, and repair; and

   •   Energy and water savings are measured and verified.

DOE’s implementing guidance states that each 4-year evaluation cycle should be one of
continuous improvement intended to achieve savings and include an agency’s evaluation of
facilities, assessment of ECMs, implementation of projects deemed to be life cycle cost-effective
and practicable to implement, and re-evaluation activities to verify energy and water savings
from implemented projects.



                                                13
FDIC Compliance. As discussed earlier, the FDIC completed energy evaluations of its Virginia
Square Buildings and SFRO in 2009 and 2011, respectively. These evaluations identified a
number of ECMs that the FDIC implemented.

With respect to the use of life cycle cost methods and procedures, the FDIC considered and
received preliminary energy savings and life cycle cost estimates from an engineering firm
pertaining to its installation of a boiler, a lighting retrofit project, air handler controls to allow the
FDIC to change the temperatures in the Virginia Square C Building conference rooms when the
spaces are not occupied, and sensors to determine how often air exchanges are required in these
rooms. Also, during our evaluation, a major HVAC renovation was underway at the FDIC’s 550
Building. These efforts considered and involved the implementation of life cycle cost-effective
designs and products. However, the FDIC has not formally adopted life cycle cost methods and
procedures and does not consistently use life cycle cost methods in assessing or monitoring
potential ECMs.

Recommendation

We recommend that the Director, DOA:

     4. Research DOE and other federal guidance and adopt a life cycle costing methodology for
        evaluating proposed ECMs.


Track and Record Information about Covered Facilities

Section 432 of EISA required DOE to implement, and agencies to use, a web-based tracking
system to certify compliance with energy and water requirements and report information on a
periodic and ongoing basis. DOE deployed the Compliance Tracking System (CTS) for agency
use in July 2010 and DOE has direct access to this system. CTS accepts federal agency reporting
on the:

     •   Designation and location of facilities covered by EISA requirements;
     •   Assignment of energy managers;
     •   Energy and water evaluations completed at covered facilities;
     •   Implementation of ECMs, including estimated cost and savings;
     •   Follow-up status on implemented ECMs, including measured savings and persistence of
         savings; and
     •   Building energy use information.

DOE made certain information in CTS publicly available in May 2013, as required by NECPA. 16
Making this information publicly available demonstrates government and agency progress in
meeting reporting and energy reduction requirements and provides increased transparency for
determining which agencies and projects achieve the best results. Greater transparency is meant


16
  42 U.S.C. 8253(g)(7)(C)(i) requires DOE to make information in CTS available to the Congress, other federal
agencies, and the public through the Internet.



                                                       14
to accelerate continuous improvement of efficiency measures, adoption of best practices,
demonstration of savings, and optimization of energy and water efficiency measures.

FDIC Compliance. DOA requested access to the CTS and began entering FDIC data into this
system in April 2013. In June 2013, DOA stated that it had entered into CTS all required
information that was available to its staff at that time. As of June 26, 2013, DOA was still
waiting for a contractor to provide the estimated cost savings associated with lighting
replacements in the Virginia Square C Building and planned to enter this data once available.
During our fieldwork, we accessed CTS and confirmed that the FDIC had entered required
information about its covered facilities and energy management efforts. Going forward, DOA
stated its intention to enter information into CTS on a periodic and ongoing basis, as required.

We are recommending below that DOA establish an independent control to periodically verify
that required information is in CTS and other reporting components are completed, as required.


Report Annually to DOE

Section 8258(a) of NECPA states that each agency shall transmit a report to DOE, at times
specified by the Secretary of DOE, but at least annually, with complete information on its
activities to meet the energy management requirements in NECPA, including the number of
energy savings contracts entered into by an agency and the related cost savings from those
contracts. This report is due to DOE on January 31 for the prior FY. This requirement has been
in effect since the early 1980s, according to DOE staff.

Information and data collected from the agencies is used to develop DOE's Annual Report to
Congress on Federal Government Energy Management. This report describes energy use and
efficiency measures across the entire federal government.

FDIC Compliance. The FDIC has historically not produced or filed an annual energy
management report with DOE. The FDIC submitted its first such report to DOE, covering
FY 2012, on June 28, 2013. 17 During our evaluation, we reviewed the FDIC’s draft report
submission, and DOA was making adjustments to this report to ensure compliance with
applicable reporting criteria. Going forward, DOA officials stated that they intend to timely
submit this annual report.

Recommendation

DOA needs to establish a control to periodically verify that FEMP-related reporting is
completed, as required. Ideally, such a control would be independent of CSB. For example,
DOA’s Management Services Branch or the Division of Finance’s Corporate Management
Control Branch could periodically verify that DOA reporting is timely and complete.




17
     DOA requested and received from DOE, an extension to June 30, 2013, to file this report.



                                                          15
We recommend that the Director, DOA:

     5. Implement an independent control to periodically verify that all required information has
        been entered into CTS, including comprehensive evaluation and ECM information, and
        that the FDIC timely files an annual report with DOE that contains complete information
        on its activities to meet the energy management requirements in NECPA.


Review Large Capital Energy Investment Decisions

Section 434 of EISA amended NECPA (42 U.S.C. § 8253) to require federal agencies to develop
a process for reviewing large capital energy investments in existing buildings to ensure that the
investments employ the most energy-efficient designs, systems, equipment, and controls, and
result in life cycle cost-effective decisions.

FDIC Compliance. The FDIC tracks and monitors large capital expenditures in an investment
budget that is separate from the Corporation’s annual operating budget. For investments
involving expenditures over $20 million, the requesting division prepares a decision case for
approval by the FDIC’s Board of Directors. For example, for the 550 Building HVAC retrofit
project, the FDIC established a capital investment control structure to include an FDIC Executive
Oversight Committee, a project team comprised of officials from the Unites States General
Services Administration (GSA) and the FDIC, and an objective third-party oversight contractor
to inspect the general contractors’ work for conformance with design specifications.

While the FDIC used a project governance structure for the 550 HVAC retrofit project, DOA has
not developed or implemented a repeatable process for reviewing large capital energy
investments. 18 Developing a formal process for reviewing decisions on large capital energy
investments would help ensure that proposed capital investments employ the most energy-
efficient designs, systems, and controls that are life cycle cost-effective. A formalized process
could help ensure senior level management commitment, a consistent focus on energy-efficient
design, and effective life cycle cost and energy savings analyses.

Recommendation

We recommend that the Director, DOA:

     6. Develop a formal, repeatable process for reviewing large capital energy investment
        decisions that considers the energy efficiency of proposed investments and life cycle
        cost-effectiveness.




18
  In 2002, the FDIC established the Capital Investment Review Committee to monitor and manage the FDIC’s
capital investments. However, from a practical standpoint, a DOA official told us that the FDIC only uses the
committee for information technology (IT)-related investments.



                                                       16
Research the Use of Energy Savings Performance Contracts

Section 8256(a) of NECPA requires each agency to establish a program of incentives for
conserving, and otherwise making more efficient use of energy as a result of entering into energy
savings performance contracts (ESPC). Section 511 of EISA requires agencies to report to DOE
at least annually concerning incentive contracts that it entered into for the purpose of making
more efficient use of energy under section 8256(a) of NECPA.

An ESPC is a working relationship between a federal agency and an ESCO. The ESCO
conducts a comprehensive energy audit for the federal facility and identifies improvements to
save energy. In consultation with the federal agency, the ESCO designs and constructs a project
that meets the agency’s needs and arranges the necessary funding. The ESCO guarantees the
improvements will generate energy cost savings sufficient to pay for the project over the term of
the contract. After the contract ends, all additional cost savings accrue to the agency. Contract
terms of up to 25 years are allowed. ESPCs allow federal agencies to conduct energy projects
with limited to no up-front capital costs. DOE maintains that ESPCs help federal agencies meet
energy efficiency, renewable energy, water conservation, and emissions reduction goals by
streamlining contract funding for energy management projects.

DOE ESPCs are indefinite-delivery, indefinite-quantity contracts designed to make ESPCs
practical and cost-effective for federal agencies. DOE has project facilitators to guide agencies
in developing, awarding, and verifying savings from ESPC projects. Project facilitator
assistance helps federal agencies to avoid obstacles and expedite projects.

Section 8258(a)(2) of NECPA requires the FDIC to report annually to DOE information about
the procedures that the agency uses related to ESPCs, the number of ESPCs entered into, the
resulting energy and cost savings and termination penalty exposure, and any problems
encountered with respect to ESPCs. In addition:

   •   Section 8256(c)(1) of NECPA authorizes and encourages agencies to participate in utility
       incentive programs to increase energy efficiency, conserve water, or manage electricity
       demand. These programs are conducted by natural gas, water, or electric utilities and
       generally available to customers of such utilities. These programs include (1) public
       purpose programs administered by utility companies, state agencies, or other third
       parties; (2) other programs offered by utility companies; and (3) programs sponsored by
       state agencies designed to promote energy efficiency and renewable energy. These
       programs are generally paid for by utility ratepayers and tax payers.

       Examples of incentive programs include rebates and other financial incentives from
       utility companies for installing or implementing items such as energy-efficient lighting;
       HVAC, refrigeration, and gas equipment; and other ECMs. Some utility companies also
       offer free energy audits to federal customers and financial incentives for installing
       identified ECMs. FEMP tracks incentive programs offered by each state, which are
       available to federal agencies. These incentive programs can be found at:
       http://www1.eere.energy.gov/femp/financing/energyincentiveprograms.html




                                                17
   •   Section 8256(c)(2) of NECPA states that agencies may accept any financial incentive,
       goods, or services generally available from any such utility to increase energy efficiency,
       conserve water, or manage electricity demand.

   •   Section 8256(c)(3) of NECPA encourages agencies to enter into negotiations with
       electric, water, and gas utilities to design cost-effective demand management and
       conservation incentive programs to address the unique needs of facilities utilized by
       agencies.

FDIC Compliance. DOA staff indicated that the FDIC was not participating in ESPCs because
it is able to fund ECMs on its own without the need to enter into an ESPC and accept funding
from an ESCO. Further, DOA found that ESPCs may impose more financial or operational
constraints on the FDIC as opposed to the FDIC implementing ECMs without using ESPCs.

As authorized by section 8256(c)(1) of NECPA, which is mentioned above, the SFRO received a
free energy evaluation in 2011 from its utility company and implemented cost-effective
recommendations such as installing a new boiler and heat exchanges. The SFRO applied for
rebates from its utility company totaling $24,798 after installing these items. Nevertheless, we
believe that the FDIC could do more to coordinate with ESCOs (such as utility companies), state
agencies, and other third parties to identify and participate in programs that achieve energy and
water savings.

Recommendation

We recommend that the Director, DOA:

   7. Research additional opportunities and incentive programs that the FDIC can undertake in
      consultation with energy service companies (such as utility companies), state agencies,
      and other third parties for the purpose of increasing energy efficiency and water
      conservation.


Consider Energy Efficiency of Leased Spaces

Section 8254(b)(2) of NECPA states that in leasing buildings for its own use or that of another
agency, each agency shall, after January 1, 1994, fully consider the efficiency of all potential
building space at the time of renewing or entering into a lease. During our evaluation, we
provided FDIC staff with GSA guidance on government-wide efforts to promote energy
efficiency when leasing building space. The guidance includes language that can be included in
all leases.

FDIC Compliance. When seeking leased office space, the FDIC solicits information about the
energy efficiency of the space in its Request for Proposal (RFP), which is distributed to
interested parties. The RFP solicits information regarding the nature and timing of renovations,
whether the space has an ENERGY STAR label or LEED rating, and the building’s HVAC
system. However, the FDIC does not have a formal approach for evaluating the energy
efficiency of leased space when making leasing decisions. As discussed in the report section


                                               18
pertaining to the FDIC’s implementation of a formal sustainability program, DOA should
develop policies and procedures pertaining to the FDIC’s approach to evaluating the energy
efficiency of leased office space when making leasing decisions.


Procure Energy-Efficient Products

Section 8259b(b)(1) of NECPA states that agencies shall procure an ENERGY STAR product or
a FEMP product when cost-effective and reasonably available. An ENERGY STAR product
constitutes a product that is rated for energy efficiency under the ENERGY STAR program. A
FEMP-designated product is one that is designated under DOE’s FEMP as being among the
highest 25 percent of equivalent products for energy efficiency.

Section 8259b(b)(3) of NECPA states that agencies shall incorporate into the specifications for
all procurements involving energy consuming products and systems, criteria for energy
efficiency that are consistent with the criteria used for rating ENERGY STAR products and
FEMP-designated products.

FDIC Compliance. FDIC staff stated that they seek out ENERGY STAR products, and we
found that the FDIC purchased ENERGY STAR refrigerators, air purifiers, and computer
equipment. FDIC staff could not recall purchases of FEMP products. As discussed in the report
section pertaining to the FDIC’s implementation of a formal sustainability program, DOA should
include policies and procedures pertaining to the FDIC’s approach to ensuring that ENERGY
STAR and FEMP products are considered when making purchasing decisions.


The FDIC’s Compliance with Executive Orders
The following three EOs contain energy efficiency measures. These EOs are not binding on the
FDIC, but several of the FDIC’s energy conservation efforts have satisfied provisions in EOs, in
addition to legislative requirements. Some provisions in these EOs were subsequently included
in EISA sections that the FDIC is subject to and therefore became binding on the FDIC when
EISA was enacted in December 2007.

Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic
Performance, October 5, 2009

Key provisions of this EO require agencies to:

   •   Set a percentage reduction target for reducing GHG emissions by FY 2020, compared to
       the agency’s FY 2008 GHGs;
   •   Improve water use efficiency and management by reducing water consumption by
       specific amounts by the end of FY 2020 and implement water reuse strategies;
   •   Promote pollution prevention and eliminate waste;
   •   Implement high-performance sustainable federal design, construction, operation and
       management, maintenance, and deconstruction principles;



                                                 19
       •   Advance regional and local integrated planning through efforts such as ensuring that
           planning for new federal facilities or leases considers sites that are pedestrian friendly
           and have public transportation;
       •   Ensure that 95 percent of new contract actions include orders for energy-efficient
           products such as ENERGY STAR and FEMP products; and
       •   Promote electronic stewardship through efforts such as purchasing electronic equipment
           that has environmentally preferable features, disposing of such products in an
           environmentally sound manner, and implementing best practices for the energy-efficient
           management of servers and data centers.

FDIC Compliance. The FDIC is not required to, nor has it set a FY 2020 GHG emissions
reduction goal or specific goals to reduce water consumption by FY 2020. However, the FDIC
has taken actions that address the provisions expressed in this EO, as follows:

       •   In its 2012 report to DOE, the FDIC reported that its FY 2012 GHG emissions were
           18 percent lower than in FY 2011. The FDIC was able to reduce its reportable GHG
           emissions by purchasing renewable energy credits (REC).

       •   As mentioned previously, during the period of our evaluation, the FDIC’s 550 Building
           was undergoing a comprehensive HVAC retrofit and plans were underway to install new
           energy-efficient windows, lighting, and plumbing fixtures in this building. An
           engineering feasibility study concluded that the HVAC retrofit project would reduce
           energy use by approximately 23 percent.

       •   The Virginia Square Buildings A and B achieved an ENERGY STAR label in June 2013
           and were LEED silver level certified in 2011.

       •   The FDIC’s disaster recovery center was LEED gold level certified in 2012. 19

       •   The Division of Information Technology (DIT) implemented server virtualization, which
           consists of configuring a single server to act and function as multiple servers, which can
           drastically reduce electricity consumption and heat emissions.

       •   DIT implemented server room cooling and power efficiency enhancements.

       •   The FDIC purchases ENERGY STAR products, including computer equipment such as
           desktops, monitors, laptops, printers, servers, audio visual equipment, and fax machines.
           Certain computer equipment also goes into sleep mode when not in use.

       •   The FDIC’s SFRO regional office installed water sensors in the outside grounds,
           resulting in immediate water savings.

       •   Most faucets have automatic sensors and water saving aerators, resulting in reduced
           waterflows.

19
     The FDIC uses this facility pursuant to a services contract.



                                                             20
   •   Waterflows in toilets were adjusted to 1.6 gallons per flush, resulting in less water usage
       per toilet flush.


Executive Order 13423, Strengthening Federal Environmental, Energy, and
Transportation Management, January 24, 2007

Key provisions of this EO require agencies to:

   •   Reduce energy use each year, leading to a 30-percent decrease by the end of FY 2015
       compared to a FY 2003 baseline. This provision is also in section 431 of EISA and
       became binding on the FDIC when EISA was enacted.
   •   Reduce fleet petroleum usage if the agency has 20 or more vehicles.
   •   Reduce water intensity by 2 percent each year through FY 2015 or by 16 percent by the
       end of FY 2015, as compared to water consumption in FY 2007.
   •   Reduce toxic and hazardous chemicals and materials, increase the diversion of solid
       waste, and maintain cost-effective waste prevention and recycling programs.
   •   Use energy from renewable sources. Agencies can also purchase RECs to help meet this
       requirement.
   •   Purchase biobased, environmentally preferable, energy-efficient, water-efficient, and
       recyclable products.
   •   Purchase electronic products that meet certain environmental standards, including
       ENERGY STAR standards.
   •   Construct and renovate buildings in accordance with sustainability strategies, including
       resource conservation, reduction, and use; and indoor environmental quality.

FDIC Compliance. The FDIC has taken actions that further the policies expressed in this EO, as
follows:

   •   The FDIC recycles ordinary products such as paper, plastic, and glass.

   •   The FDIC recycles construction debris from interior renovations of FDIC buildings,
       fluorescent lamps, copper wires, motors, and miscellaneous metals.

   •   The FDIC purchases RECs.

   •   The FDIC purchases office supplies made of recycled materials, biodegradable flatware,
       paper products, recycled construction products, and environmentally preferable cleaning
       supplies. The FDIC’s fitness center uses environmentally preferable shampoo,
       conditioner, and body wash.

   •   The FDIC has disposable/rechargeable battery drop-off containers in each of its owned
       buildings.

   •   The FDIC installed energy-efficient lighting fixtures in its Virginia Square, 550, and
       SFRO Buildings.


                                                 21
   •   The Virginia Square facility has four electric vehicle charging stations.

   •   The Virginia Square Buildings have a green roof.

   •   The air handlers and related controls were adjusted in all of the Virginia Square Buildings
       so that less energy is used when the buildings are less occupied. Further, unnecessary
       toilet exhaust fans were turned off.

   •   A supplemental chiller was installed in the 1776 Building that serves certain areas of the
       building outside of normal working hours. Prior to this installation, the building’s main
       chiller served these areas during normally unoccupied periods.

   •   An energy-efficient boiler and heat exchanges were installed in the SFRO. Additionally,
       the temperature in the SFRO’s server room was reset, resulting in energy savings.


Executive Order 13221, Energy Efficient Standby Power Devices, July 31, 2001

When life cycle cost-effective and practicable, this EO requires agencies to purchase products
that use no more than 1 watt in the standby power consuming mode when purchasing
commercially-available, off-the-shelf products that use external standby power devices or that
contain an internal standby power function. If such products are not available, agencies shall
purchase products with the lowest standby power wattage while in their standby power
consuming mode.

On a monthly basis, DOE updates a listing of ENERGY STAR products that meet this
requirement. This provision is also in section 524 of EISA (42 U.S.C. § 8259b) and became
binding on the FDIC when EISA was enacted.

FDIC Compliance. The FDIC’s purchase of ENERGY STAR IT products, as described in the
report section pertaining to EO 13514, demonstrates compliance with this requirement.




                                                22
The FDIC’s Establishment of a Formal Sustainability Program
The OIG previously reviewed the FDIC’s energy conservation efforts in 2008 and 2000, and
issued related reports containing recommendations for improvement. 20 Our 2008 report 21
contained five recommendations to DOA including:

DOA should develop a formal sustainability program to include:

     •   Senior-level management commitment and sponsorship in support of
         energy management and sustainability initiatives. DOA, in consultation
         with the FDIC’s Division of Information Technology, should also consider
         establishing an interdivisional performance metric, such as a Corporate
         Performance Objective, related to sustainability.

     •   Sufficient personnel to manage the program and to integrate divisional
         energy management efforts.

     •   Energy, water, waste, and emission management plans linked to future
         “green” initiatives and short-, medium-, and long-term actions.

     •   Policies and procedures for selecting green initiatives for consideration,
         procuring energy-efficient products, and for implementing the
         sustainability program.

     •   Program baselines, key performance indicators, and evaluation approaches
         for measuring progress.

We closed this recommendation based on DOA’s response that it would develop a sustainability
program to include a wide range of sustainability initiatives, implement a number of energy
reduction measures, and undertake efforts to achieve a LEED certification in connection with the
Virginia Square Buildings. DOA did in fact implement several sustainability and energy savings
initiatives and obtained a LEED silver level certification for the VA Square A and B Buildings.
However, DOA did not formalize the sustainability program.

DOA staff stated that they plan to formalize the FDIC’s sustainability program and ensure that
sufficient staff are dedicated to the program. Further, in 2011, the FDIC developed a detailed
draft Energy Plan, which covers several areas that the FDIC plans to include in a formal
sustainability program document. These areas include the FDIC’s strategy for achieving energy
and water use reduction goals, background information on the FDIC’s covered facilities,
legislation and EOs with which the FDIC is required to or has voluntarily complied, historical
energy and water use statistics, the FDIC’s efforts to reduce GHG emissions, and the FDIC’s
consideration of using renewable energy.
20
   NECPA encourages OIGs to conduct periodic reviews of agency compliance with its requirements and other laws
related to energy consumption.
21
   OIG evaluation: Energy Efficiency of the FDIC’s Virginia Square Facility and Information Technology Data
Center, EVAL-08-005, September 2008, page 14. See report at: http://www.fdicig.gov/reports08/08-005EV.pdf



                                                     23
We believe that a formal sustainability program requires senior-level management commitment
and should include documenting the FDIC’s goals, processes, policies, and procedures, including
those for considering the energy efficiency of leased spaces and purchasing ENERGY STAR and
FEMP products.

Our current evaluation identified several areas where the FDIC was not in compliance with
legislative requirements. Accordingly, the sustainability program should also include written
provisions and guidance for ensuring compliance with the various legislative requirements
pertaining to energy efficiency. Such efforts could include periodic, independent verifications
and compliance reviews.

Recommendation

We recommend that the Director, DOA:

   8. Implement a formal sustainability program to encompass the FDIC’s goals, processes,
      policies and procedures, and overall energy management efforts. The program should be
      documented and include written provisions for ensuring compliance with the various
      legislative requirements pertaining to energy efficiency.


Corporation Comments and OIG Evaluation
On August 9, 2013, the Director, DOA provided a written response to a draft of this report.
DOA’s response stated that the FDIC has undertaken a number of initiatives to reduce energy
and water consumption but recognized that the FDIC can do more to comply with energy and
water management reporting requirements. In its response, DOA concurred with all eight of the
report’s recommendations and described its planned corrective actions to be completed by
December 31, 2014. The planned actions are responsive to the recommendations. DOA’s
response is presented in its entirety in Appendix 7. A summary of DOA’s planned actions is
presented in Appendix 8.




                                               24
                                                                                       Appendix 1

                        Objectives, Scope, and Methodology

Objectives

Consistent with the request letter from the Bicameral Task Force on Climate Change, our
evaluation objectives were to (1) identify the existing energy management requirements
in legislation, regulation, executive order, and other directives that apply to the FDIC;
(2) assess whether the FDIC is meeting those requirements; and (3) make
recommendations that the FDIC improve its performance if the FDIC is not fully meeting
the requirements.

The Task Force request letter also asked the OIG to assess the authorities that the FDIC
has to reduce emissions of heat-trapping pollution, its authorities to make the nation more
resilient to the effects of climate change, and the most effective additional steps the FDIC
could take in those areas. As noted in our initial response to the Bicameral Task Force on
Climate Change (see Appendix 4), the FDIC does not have authorities in these areas and
it is our view that the FDIC’s focus should remain on maintaining public confidence in
the nation’s financial system and not be expanded to cover these additional areas.

We performed our evaluation from March 2013 through June 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspection and Evaluation.

Scope and Methodology

The scope of this evaluation focused on the FDIC’s compliance with provisions in energy
legislation that were binding on the FDIC. We also determined to what extent the FDIC
voluntarily complied with EOs 22 and implemented recommendations made in prior OIG
evaluations pertaining to energy management.

To achieve the objectives, we performed the following procedures and techniques:

       •   Reviewed the following legislation and EOs and assessed the FDIC’s compliance
           with:
              o The fully-amended National Energy Conservation Policy Act;
              o Energy Independence and Security Act of 2007;
              o Executive Order 13514, Federal Leadership in Environmental, Energy,
                 and Economic Performance, October 5, 2009;
              o Executive Order 13423, Strengthening Federal Environmental, Energy,
                 and Transportation Management, January 24, 2007; and
              o Executive Order 13221, Energy Efficient Standby Power Devices,
                 July 31, 2001.

       •   Reviewed guidance associated with applicable legislation and EOs.


22
     Certain provisions in EOs became binding on the FDIC when EISA was enacted in December 2007.


                                                   25
                                                                                    Appendix 1

                         Objectives, Scope, and Methodology

       •   Reviewed FDIC Legal Division analyses pertaining to the applicability of energy
           efficiency legislation and EOs to the FDIC.

       •   Issued an initial response letter to Congress, dated March 28, 2013.

       •   Analyzed information that the FDIC entered into DOE’s CTS Reporting System and
           ENERGY STAR Portfolio Manager.

       •   Reviewed energy evaluations of the FDIC’s owned buildings and the FDIC’s progress
           in implementing ECMs contained in those reports.

       •   Reviewed the FDIC’s 2012 draft and final Annual Energy Management Report and
           2011 draft Energy Plan.

       •   Learned about specific programs and initiatives that the FDIC has undertaken to
           reduce energy and water consumption.

       •   Reviewed the FDIC’s IT-related energy efficiency measures.

       •   Analyzed FDIC energy use data from FYs 2003 – 2012.

       •   Reviewed the amount of owned and leased space occupied by the FDIC.
              o Identified 11 leased spaces where the FDIC directly pays the cost of utilities.

       •   Reviewed prior OIG evaluation reports on FDIC energy consumption that were issued
           in 2008 and 2000 and assessed the FDIC’s efforts to implement recommendations in
           those reports:
               o Energy Efficiency of the FDIC’s Virginia Square Facility and Information
                   Technology Data Center, dated September 24, 2008 (EVAL-08-005). 23
               o An Assessment of the Corporation’s Efforts to Enhance Energy Efficiency and
                   Reduce Consumption of Natural Resources at Its Headquarters Facilities,
                   dated February 2, 2000 (EVAL-00-001). 24

       •   Interviewed FDIC officials in the Legal Division to understand the applicability of
           energy management laws to the FDIC and interviewed DOA and DIT officials to
           understand their efforts to implement energy savings initiatives and comply with
           various requirements.

       •   Interviewed officials in DOE and OMB to obtain clarifications on energy management
           guidance and key legislative requirements.


23
     Report available at: http://www.fdicig.gov/reports08/08-005EV.pdf
24
     Report available at: http://www.fdicig.gov/evaluations/00-001.pdf


                                                    26
                                                                                            Appendix 2

            EISA Requirements that are Applicable to the FDIC

EISA Requirement          Description
Title IV, section 431:    Specifies energy reduction goals for federal buildings by requiring that energy
Energy Reduction          intensity be reduced on a square foot basis. Compared to the combined energy
Goals for Federal         consumption per gross square foot of the federal buildings of the agency in FY
Buildings                 2003, it is to decline by 9 percent in FY 2008 and 12 percent in FY 2009,
                          ranging up to a 30-percent decrease in FY 2015.
Title IV, section 432:    Requires each agency to designate an energy manager at each covered facility
Management of Energy      responsible for implementing the programs listed in section 432 of EISA,
and Water Efficiency in   including:
Federal Buildings          • Completing a comprehensive energy and water evaluation of each covered
                               facility at least once every 4 years, and
                           • Entering energy use information into a system created by DOE and a
                               benchmarking system.
Title IV, section 434:    Requires agencies to:
Management of Federal     (1) Ensure that any large capital energy investment in an existing building
Building Efficiency           employs the most energy-efficient designs, systems, equipment, and
                              controls that are life cycle cost-effective;
                          (2) Develop a process of reviewing each decision on large capital energy
                              investments; and
                          (3) Meter natural gas and steam by October 1, 2016 in accordance with
                              guidelines to be established by DOE.
Title IV, section 438:    Requires the sponsor of any development or redevelopment project involving a
Storm Water Runoff        federal facility with a footprint that exceeds 5,000 square feet to use site
Requirements for          planning, design, construction, and maintenance strategies to maintain or restore
Federal Development       the facility’s predevelopment hydrology.
Projects*
Title IV, section 441:    Amended section 8254(a)(1) of NECPA by deleting “25” and inserting “40” in
Public Building Life      reference to the number of years, as mentioned below. The amended NECPA
Cycle Costs               section requires agencies to establish practical and effective present value
                          methods for estimating and comparing life cycle costs for federal buildings,
                          using the sum of all capital and operating expenses associated with the energy
                          system of the building involved over the expected life of such system or during
                          a period of 40 years, whichever is shorter, and using average fuel costs and a
                          discount rate determined by DOE.
Title V, section 511:     Requires agencies to report to DOE at least annually concerning incentive
Authority to Enter into   contracts that it entered into for the purpose of making more efficient use of
Contracts; Reports*       energy under 42 U.S.C. § 8256(a).
Title V, section 512:     Authorizes federal agencies, in carrying out ESPCs, to use any combination of
Financing Flexibility*    appropriated funds and private financing.
Title V, section 513:     Prohibits federal agencies in connection with the promotion of long-term
Promoting Long-term       ESPCs from:
Energy Savings            (1) Establishing an agency policy that limits the maximum multiyear contract
Performance Contracts         to a period shorter than 25 years; or
and Verifying Savings*    (2) Limiting the total amount of obligations under such contracts or other
                              private financing of energy savings measures.




                                                   27
                                                                                               Appendix 2

            EISA Requirements that are Applicable to the FDIC

EISA Requirement            Description
Title V, section 514:       Amended NECPA to make agency authority to enter into new ESPCs
Permanent                   permanent.
Reauthorization*
Title V, section 515:      Amended NECPA by expanding the definition of energy savings to include the:
Definition of Energy       (1) Increased efficient use of an existing energy source by cogeneration or heat
Savings*                       recovery;
                           (2) Sale or transfer of electrical or thermal energy, generated on-site from
                               renewable energy sources or cogeneration, to utilities or non-federal energy
                               users; and
                           (3) Increased efficient use of existing water sources.
Title V, section 516:       Amended NECPA by repealing the requirement that 50 percent of water and
Retention of Savings*       energy cost savings must remain available for expenditure for additional energy
                            efficiency measures.
Title V, section 524:       Amended NECPA by requiring that purchases of federally-procured off-the-
Federally-procured          shelf products with standby power use no more than 1 watt in the standby
Appliances with             power consuming mode; or, if such a product is unavailable, the product with
Standby Power               the lowest available standby power wattage. This requirement applies only if
                            the lower-wattage product is life cycle cost-effective, practicable, and the utility
                            and performance of the eligible product is not compromised by the lower
                            wattage requirement.
Title V, section 526:       Prohibits federal agencies from entering into a contract to procure an alternative
Procurement and             or synthetic fuel for any mobility-related use (other than for research or testing),
Acquisition of              unless the contract specifies that the life cycle GHG emissions associated with
Alternative Fuels*          the production and combustion of the fuel supplied under the contract must be
                            no more than the emissions from the equivalent conventional fuel produced
                            from conventional petroleum sources.
Source: OIG review of EISA and the FDIC Legal Division’s written analysis of EISA requirements.
* As of the report date, the FDIC had not entered into, or planned to enter into, any such projects or
contracts.




                                                      28
                                                Appendix 3

Request from the Bicameral Task Force on Climate Change




                          29
                                                Appendix 4

The OIG’s Initial Response to the Task Force Request




                         31
                                                Appendix 4

The OIG’s Initial Response to the Task Force Request




                         32
                                                                               Appendix 4

The OIG’s Initial Response to the Task Force Request




  A similar letter is being sent to each Co-Chair of the Bicameral Task Force on Climate Change.
  Please feel free to contact me at 703-562-2166, or jrymer@fdic.gov, if you need additional
  information. Leslee Bollea, of my staff, is also available to assist you and can be reached at
  703-562-6311, or lbollea@fdic.gov.

  Sincerely,

  /Signed/

  Jon T. Rymer
  Inspector General




                                            3




                                          33
                                                                                     Appendix 5

                                  Glossary of Terms

        Term                                          Definition
Air Exchanger           A ventilation system that exhausts stale air from, and provides fresh air
                        to, a building.

British Thermal Unit    The amount of heat energy needed to raise the temperature of one
(BTU)                   pound of water by one degree Fahrenheit. This is the standard
                        measurement used to state the amount of energy that a fuel has as well
                        as the amount of output of any heat-generating device.

Commissioning           With respect to a facility, commissioning is a systematic process of
                        ensuring, using appropriate verification and documentation, during the
                        period beginning on the initial day of the design phase of the facility
                        and ending not earlier than 1 year after the date of completion of
                        construction of the facility, that all facility systems perform
                        interactively in accordance with the design documentation and intent of
                        the facility and operational needs of the facility owner. The primary
                        goal of commissioning is to ensure fully functional systems that can be
                        properly operated and maintained during a facility’s useful life.

Covered Facility        Federal facilities, including central utility plants and distribution
                        systems and other energy-intensive operations that constitute at least
                        75 percent of facility energy use at each agency. Federal agencies must
                        designate as covered facilities, those facilities that constitute at least 75
                        percent of the agency’s facility-wide energy use.

Energy Intensity        Energy consumption per square foot of building space, including
                        industrial or laboratory facilities.

Energy Manager          The individual or individuals responsible for ensuring compliance with
                        the provisions of section 432 of EISA and reducing energy use at a
                        facility. The term may include a contractor of a facility, a part-time
                        employee of a facility, and an individual who is responsible for
                        multiple facilities.

Energy Savings          A contract between a federal agency and an ESCO. The ESCO
Performance Contracts   performs services for the design, acquisition, installation, testing, and
(ESPC)                  where appropriate, operation, maintenance, and repair, of an identified
                        ECM or series of ECMs, at one or more locations. Such contracts
                        require ESCOs to incur costs of implementing energy savings
                        measures, including at least the cost (if any) incurred in performing
                        energy audits, acquiring and installing equipment, and training
                        personnel. In exchange, the ESCO receives a predetermined share of
                        the value of the energy savings resulting from implementing such
                        measures during the term of the contract and guarantees that the savings
                        cover the full cost of the investment. Contract terms of up to 25 years
                        are allowed. After the contract ends, all additional cost savings accrue
                        to the agency.



                                               34
                                                                               Appendix 5

                             Glossary of Terms

         Term                                      Definition
ENERGY STAR         A secure, online, energy management tool designed by EPA, which
Portfolio Manager   allows individuals to track and assess energy and water consumption of
                    individual buildings and across an organization’s entire portfolio of
                    buildings. This system has the ability to produce energy use reports
                    that summarize energy information and building characteristics such as
                    site and source energy intensity, carbon dioxide emissions, gross floor
                    area, and the number of personal computers.

ENERGY STAR         A product that is rated for energy efficiency under an ENERGY STAR
Product             program. Products can earn the ENERGY STAR label by meeting the
                    energy efficiency requirements set forth in ENERGY STAR product
                    specifications. EPA establishes criteria based on these principles:
                    (1) Product categories must contribute to significant energy savings
                        nationwide.
                    (2) Qualified products must deliver the features and performance
                        demanded by consumers, in addition to increased energy efficiency.
                    (3) If the qualified product costs more than a conventional, less-
                        efficient counterpart, purchasers will recover their investment in
                        increased energy efficiency through utility bill savings, within a
                        reasonable period of time.
                    (4) Energy efficiency can be achieved through broadly available, non-
                        proprietary technologies offered by more than one manufacturer.
                    (5) Product energy consumption and performance can be measured and
                        verified with testing.
                    (6) Labeling would effectively differentiate products and be visible to
                        purchasers.

ENERGY STAR         A voluntary program established by the EPA in 1992, under the
Program             authority of section 103(g) of the Clean Air Act. Section 103(g) of this
                    Act directs the EPA to “conduct a basic engineering research and
                    technology program to develop, evaluate, and demonstrate non–
                    regulatory strategies and technologies for reducing air pollution.”

                    The ENERGY STAR program identifies and promotes energy-efficient
                    products and buildings in order to reduce energy consumption, improve
                    energy security, and reduce pollution by voluntarily labeling products
                    or otherwise communicating information about products and buildings
                    that meet the highest energy efficiency standards.

ENERGY STAR         An energy performance rating of a building ranging from 1-100,
Rated Building      relative to similar buildings nationwide. A rating of 50 indicates that
                    the building, from an energy consumption standpoint, performs better
                    than 50 percent of all similar buildings nationwide. A rating of 75
                    indicates that the building performs better than 75 percent of all similar
                    buildings nationwide. A building with a rating of 75 or higher may
                    qualify for the ENERGY STAR label.




                                          35
                                                                                 Appendix 5

                                Glossary of Terms

           Term                                         Definition
Facility               Any building, installation, or structure, or other property (including
                       fixtures) owned or operated by, or constructed or manufactured and
                       leased to the federal government. It includes a group of facilities at a
                       single location or multiple locations managed as an integrated
                       operation; and contractor-operated facilities owned by the federal
                       government; but does not include any land or site for which the cost of
                       facilities is not paid by the federal government.

Federal Energy         A department within DOE that provides services, tools, and expertise to
Management Program     federal agencies to help them achieve their legislated and executive-
(FEMP)                 ordered energy, GHG emissions, and water reduction goals. FEMP
                       facilitates the federal government’s implementation of sound, cost-
                       effective energy management and investment practices to enhance the
                       nation's energy security and environmental stewardship.

Federal Energy         A product that is designated under DOE’s FEMP as being among the
Management Program     highest 25 percent of equivalent products for energy efficiency.
(FEMP) Product
Green Roof             A roof of a building that is partially or completely covered with
                       vegetation and soil, or a growing medium, planted over a waterproofing
                       membrane; or a roof that utilizes some form of “green” technology such
                       as solar panels or a photovoltaic module, to reduce the “heat island”
                       effect of buildings.

Greenhouse Gas         Carbon dioxide, methane, nitrous oxide, hydrofluorocarbons,
(GHG)                  perfluorocarbons, and sulfur hexafluoride.

Greenhouse Gas         Emissions from GHGs. These emissions consist of three types:
(GHG) Emissions
                       (1) Scope 1 emissions. Direct GHG emissions from sources that are
                           owned or controlled by an agency.

                       (2) Scope 2 emissions. Indirect emissions resulting from an agency’s
                           consumption of purchased electricity, steam, or heat.

                       (3) Scope 3 emissions. All other indirect emissions not included in
                           scope 2 emissions. Scope 3 emissions are a consequence of an
                           agency’s activities but are released from sources outside its
                           organizational boundary. Scope 3 emissions may result from
                           electricity transmission and distribution losses, employee business
                           travel, employee commuting, contracted wastewater treatment, and
                           contracted municipal solid waste disposal.

Kilo British Thermal   1,000 BTUs.
Unit (KBTU)




                                             36
                                                                                   Appendix 5

                                Glossary of Terms

         Term                                          Definition
Leadership in Energy   LEED certification is a recognized standard for measuring building
and Environmental      sustainability in the United States and Canada. The United States
Design (LEED)          Green Building Council, a non-profit coalition of building industry
Certification          leaders, developed the LEED green building rating system for the
                       United States. The rating system consists of four levels: certified,
                       silver, gold, and platinum that correspond to the number of credits
                       accrued in five green design categories: (1) sustainable sites, (2) water
                       efficiency, (3) energy and atmosphere, (4) materials and resources, and
                       (5) indoor environmental quality.

                       For every strategy utilized in a LEED-registered project, the building
                       acquires the corresponding number of points for that credit. The greater
                       the number of points, the more likely the building will qualify for
                       LEED certification. The LEED rating system has a total of 110 points
                       available. Projects that achieve 40 points are LEED certified, 50 points
                       earn LEED silver, 60 points earn LEED gold, and 80 points earn LEED
                       platinum certifications.

Life Cycle             With respect to a high-performance green building, life cycle refers to
                       all stages of the useful life of the building (including components,
                       equipment, systems, and controls of the building), beginning at the
                       conception of a high-performance green building project and continuing
                       through site selection, design, construction, landscaping,
                       commissioning, operation, maintenance, renovation, deconstruction or
                       demolition, removal, and recycling of the building.

Life Cycle Cost        An economic evaluation of a project in which all costs arising from
Analysis               acquiring, constructing, owning, operating, maintaining, and disposing
                       of a project are key decision criteria. Life cycle cost analysis represents
                       the sum of the present values of investment, capital, installation,
                       energy, operating, maintenance, and disposal costs over the lifetime of
                       the project, product, or ECM. NECPA requires agencies to use life
                       cycle cost methods and procedures in the design of new federal
                       buildings and the application of ECMs to existing buildings.

Life Cycle Cost-       A measure in which the estimated savings exceed the estimated costs
Effective              over an item’s lifespan.

Payback Period         With respect to a measure, a payback period is a value equal to the
                       quotient obtained by dividing (1) the estimated initial implementation
                       cost of the measure (other than financing costs) by (2) the annual cost
                       savings resulting from the measure, including (3) net savings in
                       estimated energy and water costs, and (4) operations, maintenance,
                       repair, replacement, and other direct costs.




                                             37
                                                                                Appendix 5

                              Glossary of Terms

      Term                                        Definition
Recommissioning      A process of commissioning a facility or system beyond its project
                     development and warranty phases. The primary goal of commissioning
                     is to ensure optimum performance of a facility over its useful life, while
                     meeting building occupancy requirements.

Renewable Energy     Energy produced by solar, wind, biomass, landfill gas, ocean (including
                     tidal, wave, current, and thermal), geothermal, municipal solid waste, or
                     new hydroelectric generation capacity achieved from increased
                     efficiency or additions of new capacity at an existing hydroelectric
                     project.

Renewable Energy     Tradable, non-tangible energy commodities in the United States that
Credit (REC)         represent proof that 1 megawatt-hour of electricity was generated from
                     an eligible renewable energy resource. The credits can be sold, traded,
                     and bartered. The energy associated with a REC is sold separately and
                     used by a party other than the original purchaser. The purchaser of a
                     REC only receives a credit.

Retrocommissioning   A process of commissioning a facility or system that was not
                     commissioned when the facility or system was constructed.

Standby Power        The power consumed by a product when it is in the lowest power
                     consuming mode. This typically occurs when the product is switched
                     off or not performing its primary purpose. Products with a remote, soft
                     keypad, clock, or network connection often draw standby power and
                     increase energy use.

Utility Incentive    These programs are offered by States and utility companies and help
Programs             offset energy costs while promoting energy efficiency and renewable
                     energy technologies.




                                           38
                                                           Appendix 6

          Abbreviations and Acronyms

BTU        British Thermal Unit
CSB        Corporate Services Branch
CTS        Compliance Tracking System
DIT        Division of Information Technology
DOA        Division of Administration
DOE        United States Department of Energy
ECM        Energy and Water Conservation Measure
ECPA       Energy Conservation and Production Act
EISA       Energy Independence and Security Act of 2007
EO         Executive Order
EPA        Environmental Protection Agency
ESCO       Energy Services Company
ESPC       Energy Savings Performance Contract
FDI Act    Federal Deposit Insurance Act
FDIC       Federal Deposit Insurance Corporation
FEMP       Federal Energy Management Program
FY         Fiscal Year
GHG        Greenhouse Gas
GSA        United States General Services Administration
IT         Information Technology
KBTU       Kilo British Thermal Unit
KWH/yr     Kilowatt Hours Per Year
LEED       Leadership in Energy and Environmental Design
NECPA      National Energy Conservation Policy Act
OIG        Office of Inspector General
OMB        Office of Management and Budget
Pub. L.    Public Law
REC        Renewable Energy Credit
RFP        Request for Proposal
SFRO       San Francisco Regional Office
U.S.C.     United States Code




                            39
                                                                                                Appendix 7

                                           Corporation Comments




Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington VA. 22226-3500                                                 Division of Administration


                                       August 9, 2013

 MEMORANDUM TO:                       Stephen M. Beard
                                      Deputy Inspector General for Audits and Evaluations

FROM:                                 Arleas Upton Kea /Signed/
                                      Director, Division of Administration

SUBJECT:                              Management Response to the Draft Evaluation Report Entitled, The
                                      FDIC’s Compliance with Energy Management Requirements
                                      (Assignment No. 2013-040)

 This is in response to the subject Draft Office of Inspector General (OIG) Evaluation Report
 (“Report” herein), issued July 17, 2013. In the Report, the OIG made eight recommendations to
 the Division of Administration.

 We appreciate the review work performed by the OIG. The FDIC has undertaken number of
 initiatives to reduce energy and water consumption. However, we recognize that we can do
 more to comply with energy and water management and reporting requirements. This response
 outlines planned corrective actions for each of the recommendations cited.

 MANAGEMENT DECISION


 Finding: The FDIC has not reduced its energy consumption in line with the legislative goal

 Recommendation 1: DOA should establish energy reduction goals and a formal
 approach to reduce energy use, compared to energy use in FY 2003.

 Management Response 1: Concur with the recommendation

 DOA has implemented a number of energy conservative measures (ECM’s) at FDIC owned
 headquarters building (i.e. capital improvement projects, major repairs and administrative
 controls) in an attempt to attain the energy reduction goal of 30% by 2015 mandated by §431 of
 EISA. However, the energy reduction achieved by the implementation of the various ECM’s has
 been impacted by the dramatic increase in staff and contractors housed at the headquarters
 buildings, particularly during the “surge hiring” that occurred as a response to the financial crisis.

 As a result, energy consumption on a square footage basis has increased in concert with the
 Dramatic staff increase (employees and contractors) between 2007 and 2010.




                                                         40
                       Appendix 7

Corporation Comments




         41
                       Appendix 7

Corporation Comments




         42
                       Appendix 7

Corporation Comments




         43
                       Appendix 7

Corporation Comments




         44
                                                                           Appendix 8

           Summary of the Corporation’s Corrective Actions

This table presents corrective actions taken or planned by the Corporation in response to
the recommendations in the report and the status of the recommendations as of the date of
report issuance.

                                              Expected
                                                                               a
Rec.     Corrective Action: Taken or         Completion    Monetary   Resolved:    Open or
                                                                                          b
No.                Planned                      Date       Benefits   Yes or No    Closed
 1     DOA will develop a mechanism to      January 31,       $0         Yes       Open
       measure and track energy             2014
       consumption on a full-time
       employee equivalency basis and
       continue to identify feasible ECMs
       to reduce the FDIC’s energy
       consumption to achieve the energy
       reduction goal of 30 percent by
       2015.
 2     DOA will develop a formalized        December 31,      $0         Yes       Open
       training program for all FDIC        2013
       energy managers based on DOE
       guidelines and FDIC Energy
       Management and Sustainability
       Program needs.
 3     DOA will develop a plan or           January 31,       $0         Yes       Open
       mechanism to ensure that all         2014
       covered facilities undergo
       comprehensive energy and water
       evaluations to include
       commissioning and audit
       components every 4 years. In
       addition, as part of its annual
       internal review program, DOA’s
       Management Services Branch will
       verify that all of the FDIC’s
       covered facilities undergo these
       evaluations every 4 years.
 4     DOA will develop and implement a     January 31,       $0         Yes       Open
       formal written procedure for         2014
       evaluating, implementing, and
       monitoring ECMs for life cycle
       cost-effectiveness.




                                             45
                                                                                           Appendix 8

              Summary of the Corporation’s Corrective Actions

                                                      Expected
                                                                                               a
Rec.         Corrective Action: Taken or             Completion       Monetary     Resolved:       Open or
                                                                                                          b
No.                    Planned                          Date          Benefits     Yes or No       Closed
    5     DOA will conduct an annual review        December 31,           $0            Yes        Open
          of the ECMs in CTS to ensure that        2013
          the information is current and
          accurate. DOA will conduct its first
          review by the end of 2013. In
          addition, as part of its internal
          review program, DOA’s
          Management Services Branch will
          verify that all FEMP-related
          reporting is completed as required.
    6     DOA will develop and formalize a         January 31,            $0            Yes        Open
          process of reviewing large capital       2014
          energy investment decisions to
          ensure that ECM feasibility and life
          cycle cost-effectiveness are
          documented and senior level
          management commitment is
          obtained.
    7     DOA will seek out additional             January 31,            $0            Yes        Open
          opportunities and programs for the       2014
          purpose of increasing energy
          efficiency and water conservation.
          DOA will formalize this process by
          including the requirement in its
          written policy or procedures.
    8     The FDIC’s sustainability program        December 31,           $0            Yes        Open
          for the Virginia Square Buildings        2014
          will be expanded to include all
          headquarters facilities and the San
          Francisco Regional Office. The
          program will be documented and
          incorporate the various legislative
          requirements on energy efficiency
          identified in this report.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                     46
